IN THE

■i

SUPREME COURT OF THE UNITED STATES
*

'

DOUGLAS DEAN SCYPHERS
■ ,W'-

©

Petitioner, ProSe

vs.

STATE OF WASHINGTON, ET. AL.

FILED
JUL 3 0 2020

Respondents

OFFICE OF THE CLERK
SUPREME COURT, U.S.

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATE COURT OF APPEALS FOR THE NINTH CIRCUIT

DOUGLAS DEAN SCYPHERS
DOC # 404358
Coyote Ridge Corrections Center
GA 24-2U
P.O. Box 769
Connell, WA. 99326

Page i
QUESTIONS PRESENTED
1. When the Washington State Constitution, Article I, section 26, says, "No
grand jury shall be drawn or summoned in any county, except the superior
judge thereof shall so order." and when Washington State RCW 10.27.030
says, "No grand jury shall be summoned to attend at the superior court
of any county except upon an order signed by a majority of the judges
thereof." In particular:
(a). Are these laws conflicting?
(b). Who has ultimate control?
The "superior judge" or "the majority of the judges"?
(c). Does this create an unequal class of people who get grand jury's?
2. When Washington State RCW 10.27.030 says, "A grand jury shall be summoned
by the court, where public interest so demands, whenever in its opinion
there is sufficient evidence of criminal activity or corruption within
the county or whenever so requested by a public [prosecuting] attorney,
corporation counsel, or by a city attorney upon showing of good cause."
In particular:
(a). Does this RCW violate Washington State Constitution, Article I,
section 12, by creating an unequal class of people who get grand
jury's?
(b). Is it an unequality between citizens, when a corporation is classified
as a citizen, represented by "corporate counsel", and is able to
request a grand jury where other citizens are not able to?

Page ii
QUESTIONS PRESENTED continued
(c). Does this RCW, overall, discriminate in its vagueness as to which
class of people is worthy of a grand jury and which class is not?
3. Are the laws and Constitution of Washington State vague, conflicting,
and discriminate regarding the governing of indictment by a grand jury
and an information? in particular:
(a). Washington State Constitution:
1. Article I, section 2
2. Article I, section 12
3. Article I, section 25
4. Article I, section 26
(b). Washington State RCW 10.27 to 10.27.190
(c). Washington State Court Rules (CrR) 2.1
4. If the constitution and laws of Washington State are found to be in
conflict, vague, or discriminatory, does Washington fall back on Article
I, section 2?
(a). And does Washington have to apply Title III, Rule 7, the same at
the State level as at the Federal level?
5. When Washington State confers a right to a person, does the judge and
or a prosecutor determine the application of the conferred right?
6. Was the Petitioners right to a grand jury and the right to waive a
grand jury abridged by Washington State?
7. Did Washington abridge Petitioners rights of citizenship?

Page iii
LIST OF PARTIES
[X] All parties do not appear in the caption of the case on the cover page.
A list of all parties to the proceeding in the court whose judgement
is the subject of this petition is as follows:
RESPONDENTS
1.

State of Washington

2.

Jeffery Uttecht, Superintendent, Coyote Ridge Corrections Center
CLASS-ACTION PETITIONERS

1.

Tanawah Downing

2.

Matthew Coleman

3.

Thomas Boardman

4.

Scott Fischer

5.

Douglas Scyphers

6.

Christopher Allred

7.

Luciano Molina Rios

8.

Joshua N. DeLeon

9.

Benjimen Alexander

10. Hunter Christian
11. Richard Worley
12. Jordan Peterson
13. Clarence Braxton
14. Antaeus Clark

page IV
LIST OF PARTIES continued
15. David Edgar
16. Charles Ewing
17. Scott Doty
18. Nathan Church
19. Michael Fenton
20. Brandon Daily
21. Jesse Darnel
22. Shelby KC Scott Bush
23. Jeffery Johnson
24. Kyle Sickels
25. Ian Findlay
26. Doug Wamba
27.Charles Greenwalt
28. Daniel Bach
29. Charles Camacho
30. Stephen Perez
31. Adan Morales
32. Edward Ostrander
33. Seth Rowe
34. Michael Daniel
35. Byron Edwards

Page V
LIST OF PARTIES continued
36. Doug Arbogast
37. Kenneth Aronson
38. Christopher Johnson
39. Eric Harris
40. William Bryant
41. Michael Haxton
42. Richard Fisher
43. Clifford Reinbold
44. Justin Bryant
45. Donald McElfish
46. Thomas Jones
47. Kurt Leppert
48. Timothy Menzies
49. Jeremy Liebich
50. Bo Norling
51. Robert Power
52. Justin Brubaker
53. Kevin Neely
54. Edward Wilkins

Page VI
TABLE AUTHORITIES

CASES
(Alphabetized)
Adamson v. California, (1947)
pages 17
Aladdin's Castle, Inc. v. City of Mesquite, 630 F. 2d 1029, 1037 (5th Cir.
1980).
pages 16
Beck v. Washington, 56 Wash 2d 474, 349 P. 2d 387, 353 P. 2d 429, 365 U.S.
866, 5 L.Ed. 2d 858, 81 S. Ct. 900. Also State v. Beck, (1960).
pages 6, 17, 18, 20, 23, 25, 27, 28, and 30
Brady v. Maryland, (1963)
pages 4
Brown v. Board of Education of Topeka, (1954)
pages 26
City of Mesquite v. Aladdin's Castle, Inc. 455 U.S. 283, 290 n. 12, 102 S.
Ct. 1070, 71 L.ED. 2d 152 (1982).
pages 15
Carroll - State v. Charles M. Carroll, (1972), 83 Wti. 2d 109; 515 P. 2d 1299;
1973 Wash Lex 604 No. 42707.
pages 6, 27, 28, and 30
Costello v. United States, (1956)
pages 18
Ex Parte Wilson - see Wilson
Ex Parte Young - see Young

Page VII
TABLE OF AUTHORITIES continued
Fun Yue Ting v. United States, 149 U.S. 698, 739, 37 L.Ed. 905, 922, 13 S.
Ct. 1016.
pages 19
Gaines v. Washington, 277 U.S. 81, 86 (1928)
pages 11
Gonzalez-Oyarzun v. Carribean City Builders, Inc.
pages 10 and 24
Hurtado v. California, 110 U.S. 516 (1884)
pages 11, 12, 16, 17, 20, 24, 26 and 28
Kennedy v. Mendoza-Martinez, (1963)
pages 20
Lodwig - United States v. Lodwig, (2005)
pages 17, 18, and 23
Mackin v. United States, 29 L.Ed. 909, 117 U.S. 348 (1886).
pages 8 and 12
Marinello v. United States, 138 S. Ct. 1101, 1108, 200 L.Ed. 2d 356 (2018).
pages 10
McDonald v. Chicago, (2010)
pages 22 and 28
Milovanovic - United States v. Milovanovic, (2011)
pages 17, 18, and 23

Page VIII
TABLE OF AUTHORITIES continued
rMonroe v. Pape ^ 365; -U.S. 167 (1961)
LI

pages 4
Olech v. Village of Willowbrook, (1995)
pages 4
Plessy v. Ferguson, 163, U.S. 537 (1896)
pages 26
Ramos v. Louisana, (2020), S. Ct. 18-5924
pages 13, 24, and 28
Schneiderman v. United States, (1943)
pages 20
Sessions v. Dimaya, 138 S. Ct. 1204, 1223-24, 200 L.Ed. 2d 549 (2018) and
at 1228.
pages 9
Smith v. Goguen, 415 U.S. 566, 575, 94 S. Ct. 1242, 139 L.Ed. 2d 605 fU
(1974) Id. at 1228.
pages 10
Timbs v. Indiana, (2019)
pages 13, 23, and 28
Trop v. Dulles, (1958)
pages 16 and 20
Weinberger v. Wiesenfeld, (1975)
pages 17

Page IX
TABLE OF AUTHORITIES continued
Wilson - Ex Parte Wilson, (1885), 29 L.Ed. 89, 114 U.S. 417
pages 12
Young - Ex Parte Young, 209 U.S. 123 (1908)
pages 29
CONGRESSIONAL FEDERAL LAWS
Enabling Act of 1889
pages 21
Federal Rules Of Criminal Procedure, Title III, Rule 7.
pages 12, 13, 17, 20, and 28
Title 28 U.S.C. §2254
pages 6
28 U.S.C. §1254(1)
pages 2
42 U.S.C. §1983
pages 32
Federal Rules of Civil Procedure 23
pages 32
STATUTES AND RULES
Revised Code of Washington (RCW) 10.27 through 10.27.190
pages 7, 8, 9, 14, 26, 27, and 30
Washington State Superior Court Criminal Rules (CrR) 2.1
pages 7, 10, 11, 15, and 30

Page X
TABLE OF AUTHORITIES continued
L.Ed. §17
pages 12
L.Ed. §18.9
pages 12
CONSTITUTION OF THE UNITED STATES
Article IV, section 2, "The Citizens of each State shall be entitled to all
Priviliges and Immunities of Citizens in the several States."
pages 24
Fourth Amendment, "The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable searches and seizures,
shall not be violated, and no Warrants shall issues, but upon probable cause,
supported by Oath or affirmation, and particularly describing the place to
be searched, and the persons or things to be seized."
pages 29
Fifth Amendment, "No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or indictment of a Grand
Jury, except • • •
pages 12, 13, 17, 19, 21, 22, 24, and 28
Fourteenth Amendment, "All persons bom or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of the United States
and of the State wherein they reside. No State shall make or enforce any
law which shall abridge the privileges or immunities of citizens of the

Page XI
TABLE OF AUTHORITIES continued
United States; nor shall any State deprive any person of life, liberty, or
property, without due process of law; nor deny to any person within its
jurisdiction the equal protections of the laws."
pages 17, 18, 19, 21, 22, 24, and 29
CONSTITUTION OF WASHINGTON STATE
Article I, section 1, "All political power is inherent in the people, and
governments derive their just powers from the consent of the governed, and
are established to protect and maintain individual rights."
pages 28 and 30
Aticle I, section 2, " The Constitution of the United States is the supreme
law of the land."
pages 8, 13, 16, and 20
Article I, section 8, "No law granting irrevocably any privilege, franchise,
or immunity, shall be passed by the legislature."
pages 29 and 30
Article I, section 12, "No law shall be passed granting to any citizen, class
of citizens, or corporation other than municipal, privileges or immunities
which upon the same terms shall not equally belong to all citizens, or
corporations.11
pages 15, 29, and 30
Article I, section 25, "Offenses heretofore required to be prosecuted by
indictment may be prosecuted by information, or by indictment, as shall be

Page XII
TABLE OF AUTHORITIES continued
prescribed by law."
pages 8, 10, 27, and 30
Article I, section 26, "No grand jury shall be drawn or summoned in any
county, except the superior judge thereof shall so order."
pages 9, 10, 14, 15, 27, and 30
DECLARATION OF INDEPENDENCE - page 21

TABLE OF CONTENTS

a

PAGE
QUESTIONS PRESENTED

i

LIST OF PARTIES

iii

TABLE OF AUTHORITIES

VI

OPINIONS BELOW

1

JURISDICTION

1

STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE FACTS

5

REASONS FOR GRANTING THE PETITION

30

State Laws Must Not Be Vague, Conflict, or Discriminate

30

Constitutional Rights Cannot Be Taken Away

30

Equal Justice

30

I Have Rights

31

CONCLUSION

32

Appendix

33

(Footnotes)

4

OPINIONS BELOW

Page 1

Petitioner respectfully prays that a Writ of Certiorari issue to review the
judgments below:
1. The opinion of Spokane County Superior Court that tried my case. Unknown
if published. In addition (see appendix ii(a)(1)).
2. The opinion of Washington State Appeals Court. It was denied. Unknown
if published. In addition (see appendix ii(b)(1),(c)(2)).
3. The opinion of Washington State Supreme Court. It was denied and on motion.
Unknown if published, (see appendix ii(b)(2)f(c)(3)).
4. The opinion of U.S. District Court for Eastern Washington. It was denied.
A Recondsideration was also denied. Unknown if published.
5. The opinion of U.S. Court of Appeals for the Ninth Circuit. It was denied.
A Reconsideration was also denied. Unknown if published.

JURISDICTION
6. Spokane County Superior Court Jury Trial decided my case on December 20th,
2017.
7. A timely petition for appeal was thereafter denied on March 31st, 2020.
In addition (see appendix ii(b)(1),(c)(2)).
8. A timely petition for appeal in Washington State Supreme Court was denied
(see appendix ii(c)(3)). And on motion for September ,8th, 2020 (see
appendix ii(b)(2)).
9. A timely petition for appeal in U.S. District Court for Eastern Washington
was thereafter denied on February 5th, 2020. A Motion for Reconsideration

JURISDICTION continued

Page 2

was thereafter denied on January 26th, 2020. (see appendix iii(a)).
10. A timely petition for appeal in U.S. Court of Appeals for the Ninth
Circuit was thereafter denied on May 15th, 2020. A Motion for
Reconsideration was thereafter denied on June 1st, 2020. (see
appendix iii(b)).
11. The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1).

STATUTORY PROVISIONS INVOLVED
1. Washington State Constitution:
(a). Article I, section 2, "The Constitution of the United States is the
supreme law of the land."
(b). Article I, section 12, "No law shall be passed granting to any
citizen, class of citizen, or corporation other than municipal.,
privileges or immunities which upon the same terms shall not equally
belong to all citizens, or corporations."
(c). Article I, section 25, "Offenses heretofore required to be prosecuted
by indictment may be prosecuted by information, or by indictment,
as shall be prescribed by law."
(d). Article I, section 26, "No grand jury shall be drawn or summoned
in any county, except the superior judge thereof shall order."
2. Washington State RCW:
RCW 10.27 is too voluminous to list here. Please see appendix i(f) for
the complete listing.

STATUTORY PROVISIONS INVOLVED continued

Page 3

3. Washington State Court Rules, (CrR) 2.1:
"The initial pleading by the State shall be an indictment or an information
in all criminal proceedings filed by the prosecuting attorney."
4. The United States Constitution:
(a). Fifth Amendment, "No Person shall be held to answer for a capital
or otherwise infamous crime, unless on a presentment or indictment
of a Grand Jury, except..."
(b). Fourteenth Amendment, "All persons bom or naturalized in the United
States, and subject to the jurisdiction thereof, are citizens of
the United States and of the State wherein they reside. No State
shall make or enforce any law which shall abridge the priviliges
or immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without due process
of law; nor deny to any person within its jurisdiction the equal
protection of the laws."
5. Federal Rules of Criminal Procedure, Title III, Rule 7:
(a). When Used.
(1). Felony. An offense (other than criminal contempt) must be
prosecuted by an indictment if it is punishable:
(A). by death; or
(B). by imprisonment for more than one year.
|( ^)«j Misdemeanor. An offense punishable by imprisonment for one year
or less • • •

STATUTORY PROVISIONS INVOLVED continued

Page 4

(b). Waiving the indictment. An offense punishable by imprisonment for
more than one year may be prosecuted by information if the
defendant in open court and after being advised of the nature of
the charge and of the defendants rights - waives prosecution by
indictment.
(c). through (f). as applicable.
FOOTNOTES
1. U.S Court of Appeals for the Ninth Circuit, did not address "Remand to
the U.S. Supreme Court", (see appendix i(b)).
2. Petitioner has previously filed an "informa pauperis" with the lower
tribunal courts, (see appendix i(g)).
3. U.S. Court of Appeals for the Ninth Circuit, denial letter, (see
appendix i(e)).
4. Black's Law Dictionary definitions were too numerous to notate in the
Writ. They are acknowledged here, (see appendix Vl(b)).
5. Class-action was invoked at the lower tribunal courts. Motions for
"Vicarious Exhaustion" were also filed, (see appendix i(c)(d)).
Petitioners contributing to the class-action vicariously (see appendix
ii(a)(b)(c)).
6. Class-action is supported by cases Brady, Monroe, and Olech see page 7
and 32. The Oxford Companion - pages 21 and 29.
7. 28 U.S.C. § 1343 (a)(3), was also invoked at the lower court.

STATEMENT OF THE FACTS

Page 5

In the late summer of 2013, I filed for divorce from my wife and was awarded
custody and child support for my three sons. Toward the end of my divorce,
on June 3rd, 2014, the Spokane County Sherriff served me with a search
warrant at my hone. The Washington State Constitution and its laws provide
for a grand jury. I was not given a grand jury or the opportunity to waive
one. On September 29th, 2014, I was summoned and then arrested. I was
released to my attorney that same day. On October 8th, 2014, my divorce
trial was finalized and reversed all awards based on the alleged accusations
I was also arraigned on the same day and released on my own recognizance.
Among several pre-trial hearings, the court granted the State two ninety
day extensions to find an expert witness. The State exceeded the deadline,
contacting all of the experts the State had available in their resources,
from Seattle to Spokane to Idaho and could not find an expert who would
testify to their findings. A grand jury would have discovered this lacking,
preventing wasted court time and possibly fewer or no charges. On December
4th, 2017, my Jury Trial began. In the middle of my trial, the primary
State witness openly admitted, in court, on the witness stand, that half
of the charges (five charges), the most serious of all the charges, were
false. Thus, resulting in the dismissal of these five charges. This false,
overcharging by the prosecutor, diverted time, effort, energy and resources
away from the lessor charges for my defense. I believe, had I been given
a grand jury, these false charges would have been discovered, preventing
this waste in the court, the Jury's attention, and my defense preperation.
A grand jury's purpose is to prevent over zealous prosecutors from causing
unnecessary damage to my life, liberty, and property. I lost many of my

Page 6
family, friends, and business relationships at the first mention of the
charges, especially the false charges. On January 16th, 2018, I was sentenced.
On January 29th, 2018, I filed an indigent appeal to the State Appellate
Court. The Washington State Constitution and its laws governing grand jury's
are not clearly defined, leaving them vague, conflicting, and discriminatory
on how to prosecute by indictment vs. an information and unable to support
or uphold additional laws. Prior to charges being filed against me, the
prosecutor classified me as a person who did not merit the right to a State
grand jury or the option to waive one, unlike in the cases of BECK, CARROLL,
and others who were given a State grand jury and the option to waive one.
On November 26th, 2019, I joined an existing class-action by filing my 2254
Habeas Corpus Petition in U.S. District Court. Other class-action Petitioners,
such as, Thomas Boardman and Scott Fischer also fulfilled requirements of
the State. All of my filings have been timely, I have legal standing, and
I have personally invoked class-action. After the search warrant on June
3rd, 2014, on July 9th, 2014 (my birthday), my estranged wife picked up our
twin sons (in 8th grade), for a visit. She proceeded to use the alleged
criminal accusations to remove my sons from my hone. The court allowed my
older son (in high school) to remain with me in my hone. Later, the court
allowed me to have visitation with my twin sons, but my ex-wife refused to
comply. I have not seen my twin sons since my birthday on July 9th, 2014.
I have missed many things with my twins growing up: school activites, prom's,
sports, driving, graduations, holidays, birthdays, and everyday events. With
my oldest son and daughter, I have missed even more life changing

Page 7
events, such as, milestone promotions, events, and ceremonies in the U.S.
Marine Corps and overseas Tours protecting our nation. And with my daughter,
the birth of my first grandchild (a son), first birthday, first everything,
and helping her with her first purchase of a heme. In addition to all of
these events missed with all of my children, the ability to teach them
life lessons in person or to be there for them when they need me. Phone
calls and emails are not the same with them. My family, friends, livelihood,
business, income, identity, and reputation were all lost. A grand jury
would have prevented or lessoned these effects and given me an opportunity
to properly prepare for a defense without the false charges by the
prosecutor. My rights were denied. Because the State made an injurious
mistake, I am owed my life back.

SUMMARY OF THE CASE
In 2018, the appeal process began. Starting with the Washington State
Appellate Court. Each of the lower tribunal courts has dismissed the case.
Every appeal was filed in a timely manner. A class-action was invoked at
the lower court. And a Federal Judge acknowledged the exhaustion of state
remedies (see appendix ii(c)(1)). The same of similar constitutional issue
has been brought before all the lower tribunal courts, including Superior
Court (see appendix ii(a)(1)). Therefore, this Court has jurisdiction to
review this case. The constitutional issues in question are that the
Washington State Constitution, Washington State Court Rules (CrR) 2.1,
and Washington State RCW's, specifically those related to the indictment
by a grand jury and prosecution by information, are repugnant to the United

Page 8
States Constitution; void for vagueness, conflicts, discriminates and
violates rights of citizenship. In Article I, section 25, it says,
"offenses" and "may be prosecuted" and "as shall be prescribed by law".
The term "offenses" is not defined as to what type of "offenses" to be
prosecuted by indictment or by an information or where "offenses" previously
required to prosecuted by indictment is defined. This also conflicts with
RCW 10.27.100, indictments- "every offense", does this include misdameanors?
The phrase "may be prosecuted", by the word "may", infers there is an
option. Who decides this option? How is this option decided? It does not
define when a defendant is prosecuted under an indictment or an information.
The phrase "as shall be prescribed by law", there is no law in Washington
defining who, why, what, when, where, or how a defendant is prosecuted
under an indictment vs. an information. In MACKIN,

III!

All crimes and

offenses" against the elective franchise or the civil rights of citizens • • •
May be prosecuted, either by indictment or by an information filed by a
district attorney, does not undertake to define which of those crimes and
offenses are infamous, and therefore not to be prosecuted by information,
but leaves that to be regulated by the paramount authority of the [federal]
Constitution... [nor] do[es] [it] prescribe or indicate what offenses must
be prosecuted by indictment, and what may be prosecuted by /information." [
In the above U.S. Supreme Court ruling, reversing the conviction, the
language is nearly identical to the same vagueness in Article I, section
25. In Article I, section 2, it says, "the U.S. Constitution is the supreme
law of the land". It is the "paramount authority". When laws are vague
or conflicting, the gap created is to be regulated by that "paramount

Page 9
authority" and Washington has this provision to fall back on to fill void
laws. Article I, section 26, says, the term "except". "Except" confers that
there is a right to have a grand jury. There is no definition of this right
to a grand jury. The phrase, "the superior judge thereof shall order", is
an arbitrary discretion of power. This phrase is also in direct conflict
with RCW 10.27.030, "except upon an order signed by a majority of the judges
thereof." Article I, section 26, does not say, "the majority of superior
judges thereof • • • ". This Article has no clear direction or instructions of
who, why, what, when, where, or how to order a grand jury. In SESSIONS,
(Justice Gorsuch, J. concurring), "Fair notice of what is prohibited is an
essential element of due process and the rule of law. Vague laws can invite
the exercise of arbitrary power... by leaving people in the dark about what
the law demands and allowing prosecutors and courts to make it up. and at
1228, under the Constitution, the adoption of new laws restricting liberty
is supposed to be hard business, the product of an open and public debate
among a large and diverse number of elected representatives. Allowing the
legislature to hand off the job of law-making risks substituting this design
for one where legislation is made easy, with a mere handful of unelected
judges and prosecutors free to condem[n] all that [they] personally disapprove
and for no better reason than [they] disapprove it." In the above Supreme
Court ruling, not only is Article I, section 26, violating Petitioners right
to due process of the law, but Petitioners judges and prosecutor are
interpreting the laws as they see fit. They are to follow the law, not "make
it up". Petitioners judge, Maryann Moreno, in Spokane County, WA., swore

Page 10
an oath to uphold the U.S. Constitution and the Washington State Constitution.
When Judge Moreno sees a vagueness in the laws of Washington, she is required
to fall back on the "paramount authority" of the U.S. Constitution. In
GONZALEZ-OYARZUN, "It would be 'incongruous to apply different standards'
depending on whether the claim was asserted in a state or federal court.".
Article I, sections 25 and 26, says that Washington has indictment by a grand
jury. And the right to waive a grand jury. The grand jury is a privilege of
Washington citizenship. It is not a right that can be given or taken away
by a judge or prosecutor. The phrase "except the superior judge thereof shall
order", by what measuring does the judge order a grand jury? Where is the
equality? To order a grand jury for one citizen and not another is
discrimination. In the Washington State Court Rules (CrR) 2.1, it says, "shall
be an indictment or an information in all criminal proceedings", nowhere
i

}is it defined who gets an indictment vs. an information, or what offenses

are charged by indictment vs. an information, or why someone is being charged
by an indictment vs. an information, or where to be charged by indictment
vs. an information, or when to be charged by indictment vs. an information,
or how to be charged by indictment vs. an information. The phrase "in all
criminal proceedings", because there is no defining an indictment vs. an
information, it implies misdameanors are indictable too. It then says, "filed
by the prosecuting attorney". This best answered in MARINKT.ro, "to rely upon
prosecutorial discretion to narrow the otherwise wide-ranging scope of a
criminal statute's highly abstract general statutory language places great
power in the hands of the prosecutor." And then in SMITH, "Vague laws transfer

Page 11
legislative power to courts and police and prosecutors, where such power
most emphatically does not belong." The (CrR) 2.1, are blanket statements
littered with undefined terms, puts arbitrary power in the hands of the courts
and prosecutors, it has conflictions within its own laws and aboundes with
vagueness. The Respondent and the Courts state that, "Prosecution by
information instead of by indictment is provided for by the laws of
Washington." in their reply to the Petitioner. Nowhere does the Respondent
or the Courts point to a law of Washington to support this claim. They do
not define what those laws are,, where to find those laws, or how those laws
are implemented. Next, the Respondent and the Courts single out GAINES and
HURTADO to validate "the laws of Washington". GAINES is the progeny of
HURTADO. HURTADO says, "There is no federal constitutional violation when
a prosecuting attorney's criminal information is substituted for the grand
jury's indictment." There is a constitutional violation when the laws of
Washington are vague, conflicting, dicriminatory, and unable to support or
enforce case law. In Washington an indictment vs. "criminal information"
is undefined in how it is used or what it is claiming to be criminal. No
laws can define this in Washington. When HURTADO says, "is substituted for
the grand jury indictment.", the term "substituted" (see appendix VI(b)(5))
means that there is a process, a procedure to replace one thing for another.
The ruling of HURTADO, is the permission, not the clearly defined process
the State uses to implement a procedure for the substitution. There are no
clear processes or procedures in Washington defining what those things are.
There can be no arbitrary reason to use an information vs. an indictment.
This would be an abuse of power and highly discriminatory. The Federal

Page 12
government is a role model for an indictment vs. an information and how they
are defined and applied. The Federal government has a clearly defined rule
on how to prosecute by an information instead of an indictment. First, the
federal government turns to the "supreme law of the land", the U.S.
Constitution, specifically the Grand Jury Clause of the FIFTH AMENDMENT.
The federal government has already determined parameters of what "a capital
or otherwise infamous crime" is. See WILSON and MACKIN. Due to rulings like
HURTADO, regarding prosecution by an information, the federal government
has protected citizens rights and defined how/ Jprosecution by information
occurs. As detailed in the FEDERAL RULES OF CRIMINAL PROCEDURE, TITLE III,
RULE 7. The difference between the federal government and Washington, is
that the federal government has clearly defined processes and procedures
to prosecute by an indictment vs. an information. Nowhere in Washington can
the defined language found in TITLE III, RULE 7, be found in the laws of
Washington. L.Ed. DIGEST: STATUTES §17, "4. The doctrine prohibiting the
enforcement of vague laws rests on the twin constitutional pillars of due
process and seperation of powers... vague statutes threaten to hand
responsibility for defining crimes to relatively unaccountable police,
prosecutor, and judges, eroding the people's ability to oversee the creation
of the laws they are expected to abide by." (Justices Gorsuch, J., joined
by Ginsburg, Breyer, Sotomayor, and Kagan, J.J.). L.Ed. DIGEST; STATUTES
§18.9, Justice Gorsuch delivered the opinion of the court, "In our
constitutional order, a .vague law is no law at all... vague laws transgress
[constitutional requirements] • • • When Congress passes a vague law, the role

Page 13
of the courts under our Constitution is not to fashion a new, clearer law
to take its place, but to treat the law as a nullity and invite Congress
to try again." There is no denying that Washington has a grand jury provision
secured by the FIFTH AMENDMENT. The Respondent never denies that this exists
in Washington. Because Washington has chosen to incorporate the Grand Jury
Clause of the FIFTH AMENDMENT without clearly defining the application of
an indictment and due to its conflictions, vagueness, and discriminatory
laws, are we to assume that the Framer's of the Washington State Constitution
intended that when there is a gap in its laws, we are to fall back on the
"paramount authority" of the U.S. Constitution - Article I, section 2?
Washington has incorporated this privileged right, is Washington bound to
the same standards applied in Federal Court • • • due process, equal protection,
and privilieges and immunities of all citizens? In TIMBS, "Incorporated Bill
of Rights protections apply identically to the States and Federal Government • •
. Incorporated Bill of Rights guarantees are enforced against the States
under the Fourteenth Amendment according to the same standards that protect
rights against federal encroachment. Thus, if a Bill of Rights protection
is incorporated, there is no daylight between the federal and state conduct
it prohibits or requires." In RAMOS, "Thus, if the jury trial requires a
unanimous verdict in federal court, it requires no less in state court...
This court has long explained, too, that incorporated provisions of the Bill
of Rights bear the same content when asserted against states as they do when
asserted against the federal government." Washington can offer no less than
the FIFTH AMENDMENT GRAND JURY CLAUSE including TITLE III, RULE 7. Indictment

Page 14
by a grand jury is a privilege of citizenship and has to be available to
all persons in Washington on equal terms. RCW 10.27.030, says, "except upon
an order signed by a majority of the judges thereof." As stated earlier,
this is in direct conflict with Article I, section 26. "A grand jury shall
be summoned by the court". A grand jury is a right and a privilege of a
citizen, not of a court. It is the right of a citizen to waive a grand jury,
not the court. "Where public interest so demands". How does one define "public
interst"? And how does one determine if the public "demands" it? And (__j
"whenever in its opinion". "Whenever" is arbitrary and has no definition
of time. "In its opinion", is a relative term and has no qualified definition.
And "There is sufficient eveidence". What defines "sufficient"? Is
"sufficient" good enough for one person, but not good enough for another
person? There exists an unequality in that statement. Or "eveidence", how
does one know what kind of "evidence" required or prohibited for a grand
jury? There is no standard to measure against. And "criminal activity or
ccorruption", is a vague reference. Misdameanors can be criminal activity
or corruption. "Criminal", "activity", and "corruption", on their own are
vague uses of the words. There is no explicit definitions to define this
type of behavior or what is permissible and what is not. "Or whenever so
requested by a public [prosecuting] attorney, corporation counsel or city
attorney". Again, the term "whenever" is vague for time. Where is the
beginning and where is the end for "whenever"? And "so requested by"
predicated with "whenever", does this mean that in the middle of a trial
being prosecuted under an information, the attorney can "request" a grand

Page 15
jury? What are the limits? A "superior judge", a "majority of the judges",
a "prosecuting attorney, corporate counsel, and a city attorney" can request
a grand jury. Who is in charge? Also, a corporate counsel is representing
a corporation and a corporation is classified as a citizen. Why can a
corporate citizen request a grand jury and not a bom or naturalized citizen?
This is in direct conflict with ARTICLE I, section 12. It is discrimination
and gives unequal rights to a specific class of citizens. It is also in direct
conflict of (CrR) 2.1, "filed by a prosecuting attorney in all criminal
proceedings". These phrases leave more questions than answers. And when
ARTICLE I, section 26, conflicts with "except the superior judge thereof
shall order", who is requesting or ordering the grand jury? The sole
discretion is undefined and left up to judges, prosecutors and attorney's.
This exactly where Justice Gorsuch said, "such power does not belong". This
arbitrary power deprives the Petitioner of his right to a grand jury and
the right to waive one. The State has taken away rights from the Petitioner,
not added to them. And then, "upon showing of good cause". The term "upon
showing", implies presenting. But when put together with "of good cause",
it takes on a whole different meaning of "presenting a good reason". What
is "good" enough? What is a "good cause" defined as? This phrase can be
directly compared to the Black's Law definition of "vagueness" (see appendix
VI(b)(2)) it says, "within a reasonable time" is plagued with vagueness what is reasonable?" [what is "good cause"?] Vagueness is a violation of
due process, because enforcement becomes arbitrary." In CITY OF MESQUITE,
"A law is void for vagueness if a persons of common intelligence must

Page 16
necessarily guess at its meaning and differ as to its application... the
offense to due process lies in both the nature and consequences of vagueness."
In ALADDIN'S CASTLE, INC., "...vague laws defeat the intrinsic promise of,
and frustrate the essence of, a constitutional regime. We remain a government
of laws, and not of men, only so long as our laws remain clear." The
Respondent on several occasions has cited HURTADO, as reasons to justify
prosecution by information • • • "Indictment by a grand jury is not part of
the due process guarantees of the Fourteenth Amendment that apply to state
criminal defendants." Becuase HURTADO is the permission and not the process
or procedure, the very problem is in the framework of the laws within
Washington. There must be clearly defined laws in place to be able to
implement a ruling like HURTADO. Washington's laws are vague at best. And
there is conflict between the laws governing an indictment vs. an information.
The information used to prosecute and try the Petitioner has been done
illegally. The case law used in HURTADO, violated Petitioners rights when
HURTADO has no legal standing upon the laws of Washington to be enforced.
A State cannot operate on case law alone. It must be backed up with clearly
defined laws to support the use of case law. Washington has a grand jury
and its application is unclear. Therefore, HURTADO has no legal standing
in Washington. In TROP, "The [Supreme] Court ruled that [the] denial of an
[defendants] very "right to have rights", violated the [cruel and unusual
punishment] clause [of the 8th Amendment].". Due to the "nullity of law",
the only legal constitutional law in Washington, regarding prosecution of
"capital or otherwise infamous crimes", is ARTICLE I, section 2, where the

Page 17
U.S. Constitution is "the supreme law of the land". Even if Washington could
produce a clear and concise indictment vs. information law that does not
abridge any right of the Petitioner, that law would have to mirror the laws
of the federal government, since Washington has incorporated indictment by
grand jury. TITLE III, RULE 7, clearly defines when an indictment and an
information are afforded to a defendant, and how to apply them. This is due
process of the law, equal protection of the law, and privileges or immunities.
These are protected under the FOURTEENTH AND FIFTH AMENDMENTS. In W^ti\trp!RCT!Rr
"[T]his Court's approach to the Fifth Amendment equal protection claims has
always been precisely the same as to equal protection claims under the
Fourteenth Amendment."
UMEQUAL TREATMENT
Washington has gone a step farther in its application of the grand jury.
In BECK, "we must bear in mind that the appellant was indicted by a grand
jury impaneled in the State of Washington and not by a federal grand jury."
This is well after the establishment of HURTADO being "the law of the land".
Then, in MILOVANOVIC and in IODWIG, these people were indicted by a federal
grand jury in Washington. All three people are Washington State citizens
and United States citizens. The FOURTEENTH AMENDMENT says, "All persons bom
or naturalized in the United States, and subject to the jurisdiction thereof
are citizens of the United States and of the State wherein they reside.".
The FIFTH AMENDMENT says, "No person shall be held to answer for a capital
or otherwise infamous crime, unless on a presentment or indicment of a grand
jury, except • • • " In ADOMSON, Justice Reed said, "With the adoption of the

Page 18
Fourteenth Amendment, it was suggested that the dual-citizenship recognized
by its first sentence, secured for citizens federal protections for their
elemental privileges and immunities of state citizenship • • • declaring that
state and national citizenship coexist in the same person, the Fourteenth
Amendment forbids a state from abridging the privileges and immunities of
citizens of the United States... it accords with the Constitutional Doctrine
of federalism by leaving to the states the responsibilities of dealing with
the privileges and immunities of their citizens except those inherent in
national citizenship." In COSTHLTQ, Justice Black delivered the opinion of
the court, "the grand jury is an English institution, brought to this country
by the early colonists and incorporated it in the Constitution by the
Founder's." The grand jury is a privilege of national citizenship. It is
also a privilege of state citizenship when Washington incorporated the grand
jury into its laws and Constitution. In Washington, dual citizenship coexists
in the same person as a U.S. citizen and as a Washington State citizen. The
Washington grand jury must be no less than equal to the federal grand
jury. The laws must apply equally to each citizen. Therefore, the due process,
equal protections, and privileges and immunities of the FOURTEENTH AMENDMENT
apply to Washington's grand jury. In giving BECK a State grand jury, an
unequality was created between BECK and the Petitioner. Furthermore, another
unequality was created between BECK, MILOVANOVIC, LODWIG and the Petitioner.
BECK is a dual-citizen who received a State grand jury; MILOVANOVIC and LODWIG
are dual-citizens who received a Washington State Federal Grand Jury; and
the Petitioner is a dual-citizen who received prosecution by an information.
Each of us are citizens of the United States and citizens of Washington.

Page 19
Because state and national citizenship coexist in the same person, the court
cannot separate a person from himself. In the FIFTH AMENDMENT, it says, "No
person shall be • • • " and in the FOURTEENTH AMENDMENT, it says, "All persons..."
In FUNG YUE TING, "As Mr. Justice Brewer said in dealing with whether [people]
are protected by the first 10 Amendments; it is worthy of notice that in
them the word "citizen" is not found. In sane of them the descriptive word
is "people", but in the Fifth it is broader, and the word is "person", and
in the Sixth it is the "accused", while in the Third, Seventh and Eighth
there is no limitation as to the beneficiaries suggested by any descriptive
word."
ADDITIONAL RIGHTS OF CITIZENSHIP
The fundamental rights guaranteed by the Federal Constitution, is to all
persons, in all states. Citizenship is a privilege. With the privilege of
being a citizen and a person within the jurisdiction thereof, canes rights.
One of those rights, is the protection from expatriation. Washington cannot
separate the national citizenship from the state citizenship. It also means
that Washington cannot separate federal rights fron state rights. Said another
way, the state cannot give fewer rights than the U.S. Constitution ordains.
Once Washington State wrote the grand jury provision of the FIFTH AMENDMENT
Into its own system of justice, all privileges and immunities were invoked
to all persons and citizens of and within Washington. Equal protections of
the law apply identically to federal defendants as they would to state
defendants. All federal rules of the grand jury applicable to federal
defendants are also applied identically to state defendants. Under TITLE

Page 20
III, RULE 7, a defendant must be given the right to a grand jury and the
right to waive one. Washington has created an unequality between its people
through the vagueness and conflictions of its laws. What justification of
the law provided for a State grand jury for BECK and a prosecution by
information for the Petitioner? For the Respondent to cite only HURTADO
without defining its own laws on how indictment vs. information opperate,
is malicious abuse of Petitioners rights. The State cannot revoke Petitioners'
national citizenship right to a grand jury and applicable rules, after it
creates a grand jury provision of its own for its State citizens. Petitioner
is more than a Washington citizen, he is also a U.S. citizen. In TROP, "The
[Supreme] Court affirmed the importance of citizenship by holding that a
citizen by birth could not be expatriated • • • Chief Justice Earl Warren wrote..
. that loss of citizenship would amount to cruel and unusual punishment banned
by the Eighth Amendment." In SCHNEIDERMAN, "The Supreme Court held that • • •
person[s] could not lose their citizen status • • • construing the facts and
law as far as reasonably possible in the citizen's favor." In KENNEDY,
"citizenship is a "liberty interest" and a "most precious right." Petitioner
lost his national citizenship rights and state citizenship rights, when he
was denied his right to a grand jury by the judge, prosecutor and abstract
laws of Washington. This made the Petitioner an "alien" in his own country.
When Judge Moreno, presided over the Petitioner and ignored the vague,
conflicting, and dicriminate laws, she separated Petitioner from the U.S.
Constitution provided for in ARTICLE I, section 2. Judge Moreno (representing
the State), cut off Petitioner's national citizenship, therefore, expatriating

Page 21
him. Black's Law defines "Person" as "A Human Being". To deny Petitioner
of citizenship status or of rights, where the FIFTH AME3SDMENT says, "No
Person..." or the FOURTEENTH AMENDMENT says, "All persons • • • ", when does
a person stop being a person? Or when does a human being stop being a human
being? Or when does a citizen stop being a citizen? A person, a human being,
and a citizen all have rights. Take away those rights, and all is lost.
Petitioner has lost more than rights, more than citizenship, and more than
justice, he has lost his identity. Washington has denied Petitoners
"citizen status" by not having clear laws in the State to bind its citizens
equally. This separation from the State to its citizens, in turn separated
Petitioner from the Federal Union of citizenship. Having clear laws on how
to govern its citizens is a fundamental right of State citizenship. This
was a prerequisite of Statehood in the ENABLING ACT OF 1889 for the Territory
of Washington in becoming a State of the Union. Washington has caused a
grievous injury to the Petitioner through vague, conflicting, and discriminate
laws. In THE OXFORD COMPANION, page 170, says, "Once defined in 1868 [the
14th Amendment], citizenship became an operative term in four more Amendments,
[the 15th Amendment; 19th Amendment; 24th Amendment; and the 26th Amendment]..
. No less than the entire Bill of Rights applies to "the people" - citizens
and the non-citizens alike." The FEDERAL CONSTITUTION, all 27 AMENDMENTS,
and the DECLARATION OF INDEPENDENCE incorporates "person" as a State citizen
and a U.S. citizen coexisting in the same person. The FOURTEENTH AMENDMENT
protects all persons of their dual-citizenship without expatriation of one
from the other. The FOURTEENTH AMENDMENT is very clear, "All persons bom

Page 22
or naturalized in the United States,... are citizens of the United States
AND of the State wherein they reside." Washington and the courts cannot
separate one person from the other person (Petitioner from himself). This
would be a loss of Petitioners citizenship (expatriation). This would also
be revoking all of Petitioners Constitutional rights as a "person", or as
defined - "a human being". To re-read the FIFTH AMENDMENT or any part of
the Constitution by the mere definition of "person", can be read as follows:
"No [human being] shall be held to answer for a capital or otherwise infamous
crime, unless on the presentment or indictment of a Grand Jury, except • • •
nor shall any [human being] be subject for the same offense • • • nor shall
[any human being] be compelled__ nor shall [any human beings] private
property • • • " - if one persons rights are protected, all persons rights are
protected. How can a person be protected against sel-incrimination, or a
right to counsel, or a right protecting illegal search and siezure, or a
right to freedom of religion, but that same "person" who's citizenship is
protected, who's rights are protected, is not protected for a grand jury?
The FOURTEENTH AMENDMENT protects all "persons". By definition and
incorporation, a "person" is the same in the entire U.S. Constitution. There
is "no daylight" between "no person" in the gmad jury clause, or "any person"
in the Double Jeopardy Clause, or "all persons" of the FOURTEENTH AMENDMENT.
In MCDONALD, "it does not undermine the well-established rule that
incorporated Bill of Rights protections apply identically to the States and
the Federal government... Thus, if a Bill of Rights protection is incorporated
there is no daylight between the federal and state conduct it prohibits or

Page 23
requires • • • Incorporated Bill of Rights guarantees are enforced against the
states under the Fourteenth Amendment according to the same standards that
protect the personal rights against federal encroachment." In TIMBS, Justice
Gorsuch wrote, "There can be no serious doubt that the Fourteenth Amendment
requires the States to respect the freedom[s]... enshrined in the Eighth
Amendment." The "loss of citizenship", "loss of citizen staus", and
"expatriation" are "banned by the Eighth Amendment". Black's Law defines
"status" as: "A personal legal condition... the sum total of a person's legal
rights". When the Petitioners "sum total of legal rights" are taken away
or subtracted from, the "legal condition" of the Petitioner changes to a
"loss of status", a "loss of citizen status". A person cannot only be a State
citizen or only a national citizen within the U.S. borders. A "person" is
both citizens simultaneously. In each provision of each Amendment, the
"person" cannot be separated from the provisional right. Without the "person",
no right can exist. Without the States, there can be no Federal Union and
without the Federal Union, there can be no States. Dual-citizenship coexists
in the same "person". Neither right can be absolved. Under the equal
protection of the laws, Washington is obligated to give every person in its
jurisdiction the same, equal, due process of laws. Yet, Washington has
citizens who are treated unequally under the law. MILOVANOVIC, and LODWIG,
received the right to waive a grand jury, while BECK recieved a State grand
jury with undefined laws, and the Petitioner received an information with
vague, conflicting, discriminate laws and no right to a grand jury or. the
right to waive one. Each of these "persons" are citizens, entitled to the

Page 24
same laws equally. Each of these "persons" has had their dual-citizenship
rights abridged. Each of these "persons" were given or denied a grand jury
unequally. In GONZALEZ-OYARZUN, "It would be incongruous to apply different
standards depending on whether the claim was asserted in a state or federal
court." In RAMOS, "This court has long explained, too, that incorporated
provisions of the Bill of Rights bear the same content when asserted against
states as they did when asserted against the federal government... Thus / /
if the jury trial requires a unanimous verdict in federal court, it requires
no less in state court."
PRIVILEGED CLASSES OF PEOPLE
The FOURTEENTH AMENDMENT guarantees due process, privileges or immunities,
and equal protection of the law. The FIFTH AMENDMENT also guarantees due
process and equal protection of the law. And ARTICLE IV §2 of the FEDERAL
CONSTITUTION guarantees privileges and immunities. All of these are
incorporated into the Bill of Rights. Vagueness, conflictions, and
unequality of the law is an abridgment of each one. Nowhere does Washington
disavow that it has a grand jury. Indictment by a grand jury is a privilege
of citizenship in both the federal government and of Washington. If the grand
jury in Washington, for State defendants, is given in "special circumstances",
one, this is not defined what those are, and two, this is discrimanation
among citizens. If the judge or prosecutor decides who and who not to order
a grand jury for, it becomes discretionary against all persons. The Respondent
argues that HURTADO is allowed by "the laws of Washington". HURTADO has no
legal standing in the State of Washington upon vague, conflicting, and
discriminatory laws. In RAMIS, "Close enough is for horseshoes and granades,

Page 25
not Constitutional interpretations." Additionally, in BECK, Mr. Justice Clark,
of the State Supreme Court, delivered the opinion of the court, "As cited
before, Beck was indicted by a State Grand Jury and not a Federal Grand Jury,
for these specific crimes... On April 26th the county prosecutor announced
that a special grand jury would be impaneled in Seattle to investigate
possible misuse of Teamsters Union funds by international President, Dave
Beck... [the State cites:]The State of Washington abandoned its mandatory
grand jury practice sane 50 years ago... [the court cites:] Since that time
prosecutions have been instituted on informations filed by the prosecutor,
on many occasions without even a prior judicial determination of "probable
cause"... Grand Juries in Washington are convened only on special occasions
for specific purposes. The Grand Jury in this case, the eighth called in
King Gounty in 40 years, was summoned primarily to investigate circumstances
which had been the subject of the Senate Committee Hearings... It may be
that the Due Process Clause of the Fourteenth Amendment requires the State,
having once resorted to a grand jury procedure, to furnish an unbiased jury".
The State cites that BECK, a Washington citizen and a U.S. citizen, was given
a State Grand Jury, implies he was a highly publicized, corporate figure • • •
"US News & World Report" article and President of the Teamsters Union. By
doing this, Washington has created a "class" of "privileged" citizens.
Washington is implying, that unless a "person" is a Political figure,
celebrity, person of significance, an influential business person such as
Washington citizens, Bill Gates or Jeff Bezos, or other important persons
who are both citizens of Washington and the United States, they are better

Page 26
than or more "privileged" than an "average" citizen, a "homeless" citizen,
or a person' of "alien" status. All "persons" are created equal before the
law. This was made very clear in BROWN when it overturned PLESSY. Without
rules, we live with the animals. No one can be treated differently than
another due to social or economic status. Washington has created "classes
of privileged" people - citizens, by discriminating who gets a grand jury
and who does not, based on the "persons" standing in the community. Justcie
Clark, cited, "for these specific crimes". Where in Washington are these
crimes defined to get a grand jury? The State cites that the "mandatory grand
jury" was "abandoned • • • 50 years ago". And it says that during the previous
"40 years • • • eight grand jury's were summoned in King County". This shows
partiality and discrimination. This is not equal treatment under the law
between citizens. This is also after HURTADO being the "law of the land".
How can HURTADO be the

law of the land" when the State continues to use

grand jury's? It only takes one usage to break the "law of the land". Also,
the State does not cite how many other grand j ury' s have been convened in
all other counties in Washington. If no other counties convened a grand jury,
it is discrimination of King County citizens vs. other citizens of counties
throughout Washington. And if there were grand jury's convened in those other
counties, it is discrimination of Washington citizens and U.S. citizens,
who did not get a grand jury. If Washington "abandoned" the grand jury, the
Washington State Constitution does not reflect this change. It is the same
language since it was ratified in 1889. In RCW 10.27,100. it still requires
an information to be presented before a grand jury. It also states, "the

Page 27
grand jury shall inquire into every offense triable within the county for
which any person has been held to answer for • • • " This is in direct conflict
of ARTICLE I, sections 25 and 26. (This RCW is also known as the "Criminal
Investigatory Act of 1971" - RCW 10.27) In CARROLL, The Washington State
Supreme Court held that the "grand jury [in Washington] continued to exist
and was valid... the court found that it was against good common sense and
the interest of society to hold otherwise. It would be the kind of thing
that causes the public at large to lose confidence in the law. The court
will not make such a holding • • • The existence and functioning of the grand
jury in [Washington] [a]re well known in the state and the legislature did
not intend to void those proceedings. On the contrary it is far more likely
the enactment of the Criminal Investigatory Act of 1971 as a model grand
jury act was intended by the legislature to aid the effectiveness of the
grand jury process. It was intended to assist both pending investigations
and all future investigations which might be undertaken in the state. Truly,
indeed, to hold the [Washington] grand jury ceased to exist, would be against
good common sense." In CARROLL, he was also given a State grand jury a decade
after BECK. It was not "abandoned" as the State cited. But, once again, in
CARROLL, where numerous citizens were indicted, they were all prominent
figures of society, high profile, and highly publicized. This is more blatant
discrimination between citizens of Washington. In both BECK and CARROLL,
the State Supreme Court cites federal case law, that if it is "this way"
in the federal, it is the same way in the state. Washington cannot escape
this sameness. As long as Washington has a grand jury, it must follow the

Page 28
federal government practices exactly the same way, including TITLE III, RULE
1_. In TIMBS, MCDONALD, and RAMOS, they all set a precedent how the state
must follow a minimum standard set by the federal government in criminal
and civil case. Washington admits to discrimination of its citizens, when
the court cites that "grand jury's in Washington are convened only on special
occasions, specific purposes, and for specific crimes". These terms are vague.
Where are these terms defined? This is arbitrary and discretionary. How does
a "person" become one of these "privileged classes of people" to qualify
for a grand jury? Washington only had to violate this one time to show
unequality. Washington admits to eight other times in BECK and in CARROLL,
numerous other "persons" were given a grand jury. This is well after the
ruling of HURTADO • • • decades after. The Petitioner cannot seek justice in
Washington, because the State has shown a history of violating these rights
and these laws are in jeopardy. The State cannot administer justice when
the laws and Constitution are in violation of its self. Federal intervention
is eminent. Washington arbitrarily institutes grand jury's at its leizure
for citizens of its choosing. Washington has chosen to discriminate against
State citizens, U.S. citizens, and "persons". It has chosen to create
"classes" of people who are "privileged" to get a grand jury and the right
to waive one. Washington invoked the FIFTH AMENDMENT Grand Jury Clause into
its own laws and Constitution. Petitioner is entitled to all rights associated
with that Clause. The State cannot take away what it has given or partially
take away what is guaranteed in its entirety without knowing consent. ARTICLE
I, section 1, says, my rights are established and protected. ARTICLE I,

Page 29
section 8, says, no law can revoke my rights. And ARTICLE

i,

section 12,

says, I get the same equal rights as everyone else. The State Supreme Court
also cites that, informations can be filed by prosecutors without "probable
cause". The FOURTH and FOURTEENTH AMENDMENTS protect "persons" from this
kind of abuse from over-zealous prosecutors. In EX PARTE YOUNG, the U.S.
Supreme Court stated that, "No change in ancient procedure can be made which
disregards those fundamental principals... which... protect the citizen in
his private right and guard him against the arbitrary action of the
government". Washington police, judges, and prosecutors rely on laws, case
laws and the Constitution for their rulings. This is a State Supreme Court
giving permission to all future cases to be prosecuted by information without
"probable cause". This becomes prosecution by Tyranny. A grand jury prevents
this arbitrary over-zealousness. The Massachusetts General Court in 1768
declared: "In all free States the Constitution is fixed; and as the supreme
Legislative derives its Power and Authority from the Constitution, it cannot
overleap the Bounds of it, without destroying its own foundation." The State
cannot trade away the Petitioners rights by substituting one thing for another
without the consent of the citizen. Washington has sold Petitioners rights
for the benefit of cost savings. Thomas Jefferson, "insisted on a written
Constitution and a written Bill of Rights. The phrase "inalienable rights"
that appears in The Declaration of Independence means that people cannot
alienate - that is, sell or trade - their rights because to do so would render
the people less than sovereign." - THE OXFORD COMPANION page 212 (see appendix
VI(a)).

Page 30
REASONS FOR GRANTING THE PETITION
1 . STATE LAWS MUST NOT BE VAGUE, CONFLICTING, OR DISCRIMINATE:
The Washington State Constitution, ARTICLE I, sections 25 and 26, and
RWC 10.27, and (GrR) 2.1, are vague, conflicting, and discriminate. They
do not clearly define the usage of indictment vs. an-J information, nor
clearly defined processes or procedures for substitution of other laws.
Judges and prosecutors are left as arbitrary deciders of the law in who
does and does not qualify for a grand jury and the right to waive one.
The State has created "classes" of people who are "privileged" to get
grand jury's, as in the cases of BECK and CARROLL. Petitioner has also
been separated from his dual-citizenship rights.
2. CONSTITUTIONAL RIGHTS CANNOT BE TAKEN AWAY:
ARTICLE I, section 1, says that this constitution is, "established to
protect and maintain individual rights". ARTICLE I, section 8, says, "No
law granting irrevocably any privilege, franchise or immuity shall be
passed by the legislature". ARTICLE I, section 12, says, "No law shall
be passed granting to any citizen, class of citizens • • • privileges or
immunities which upon the same terms shall not equally belong to all
citizens, or corporations". Sections 25 and 26 confer a right to indictment
by a grand jury. This right has been established, it cannot be taken away
without knowing consent.
3. EQUAL JUSTICE:
When an individual commits a crime and the proper due process is given
for a conviction, the penalty is that the person is deprived of life,

Page 31
liberty, and property for a specified period of time. When a State has
vague, conflicting, and discriminate laws that violate a persons rights
and unlawfully convict that individual, that person is deprived of his
life, liberty and property. The penalty for the State is, that the person
must be restored to his prior self and set free from bondage. We are a
nation of laws, where no one is above the law, not even a State.
4.

I HAVE RIGHTS:
Prior to my case, I did not know my rights. I have rights, they are
inalienable. A prosecutor and a judge (the State), deprived me of my rights
through Washington's vague, conflicting, discriminatory laws. Petitioners
rights to due process, equal protection, and privileges and immunties
have been violated. I lost everything I knew and loved at the hands of
those I am supposed to trust. I pray that this Supreme Court of the United
States will assist me in getting the rights back of all citizens now and
for the future, by holding Washington accountable for their disregard
of a persons rights. Thank you very much.

AND JUSTICE FOR ALL!
A positive ruling by this Court will Qre-establish justice in this State
for every citizen who has been or will be tyrannized by illegal laws aimed
at depriving citizens of their rights. It only takes one aspect of a law
to abridge a right for it to become void. There are numerous violations in
Washington's laws. The Petitioner has been illegally charged, convicted,
sentenced, and being held against his will. Until this court intervenes,

Page 32
"all [citizens] are [not] created equal" in Washington State.

CONCLUSION
This Supreme Court should grant this Petition for a Writ of Certiorari for
the following requests:
1. Reverse the decisions by the lower tribunal courts.
2. Vacate Petitioners charges.
3. Declare all of the evidence as Fruits of the Poisoness Tree.
4. Mandate that Washington correct all of its imposter laws.
5. Grant the invoke of class-action, under 42 U.S.C. §1983 and or under
Fed. R. Civ. P. 23.
6. Immediately release Petitioner from confinement.
7. Grant Petitioners Motion For Restoration (see appendix iii(a)).
8. Expunge all records associated with current conviction.

Humbly and Respectfully submitted,

Douglas Dean Scyphers, Petitioner, ProSe

Tul'y
Douglas Dean Scyphers
DOC # 404358
Coyote Ridge Corrections Center
GA 24-2U
P.O. Box 769
Connell, WA. 99326

, ) £020

